Office of Inspector General



         Evaluation of the FMC’s
   FY 2012 Privacy and Data Protection

                 A13-02




           December 2012



FEDERAL MARITIME COMMISSION
                              FEDERAL MARITIME COMMISSION
                                 800 North Capitol Street, N.W.
                                    Washington, DC 20573

                                      December 6, 2012
Office of Inspector General


TO:              Chairman Richard A. Lidinsky
                 Commissioner Joseph E. Brennan
                 Commissioner Mario Cordero
                 Commissioner Rebecca F. Dye
                 Commissioner Michael A. Khouri


FROM:            /Adam R. Trzeciak/
                 Inspector General

SUBJECT:         OIG Report on Privacy and Data Protection

The Office of Inspector General (OIG) performed a review of privacy and data protection
policies and procedures to determine if the Federal Maritime Commission (FMC) is
complying with Section 522 of the Consolidated Appropriations Act, 2005, (42 U.S.C.A.
§ 2000ee-2).

Section 522 requires an independent third-party review of agency use of personally
identifiable information (PII) and of its privacy and data protection policies and
procedures at least every two years. PII is information which can be used to distinguish
or trace an individual's identity, such as their name, social security number, biometric
records, etc., alone, or when combined with other personal or identifying information,
which is linked or linkable to a specific individual, such as date and place of birth,
mother’s maiden name, etc. This evaluation satisfies the required third-party review.

The agency has improved its privacy program since our last review in 2010. For
example, it closed two of four deficiencies and has created policies and procedures to log,
verify and reassess data extracts from databases holding sensitive information for longer
than 90 days. Also, the agency removed the FMC-18 Privacy Impact Assessment (PIA)
from its website because FMC-18 is a component of another system, FMC Database, and
did not require a PIA.

We also identified areas where controls in select areas can be improved. The FMC’s
Senior Agency Official for Privacy, the Privacy Act Officer, the Chief Information
Officer and senior managers have responsibility for agency systems and compliance with
Federal laws, regulations, and policies relating to information privacy. Although there is
interaction and communication between these individuals, communication and
coordination on information privacy, including review of systems and determinations for
PIAs, could be improved. Many subsidiary systems have not had an analysis performed
to identify if a PIA is required for completion. We also identified concerns with System
of Records Notices (SORNs) postings and “routine uses” for systems. Three existing
PIAs are outdated and the agency has not informed the public about some systems
containing PII.

Apart from this mandated review of Privacy Act compliance, the OIG also opened a
nonpublic investigation into privacy matters involving the use of computer monitoring
software at the FMC between June 2011 and December 2011.

The OIG met with management who concurs with our findings and recommendations.
Management comments are attached to this report.

The OIG wishes to thank the Privacy Act Officer, the Senior Agency Official for Privacy
and the Chief Information Officer for their assistance. I am available at your
convenience to discuss the report’s findings and recommendations.

cc:    Ronald Murphy, Managing Director
       Karen Gregory, Privacy Act Officer
       Austin Schmitt, Senior Agency Official for Privacy
       Anthony Haywood, Chief Information Officer




                                           -2-
FEDERAL MARITIME COMMISSION
OFFICE OF INSPECTOR GENERAL




  Evaluation of the FMC’s FY 2012
    Privacy and Data Protection
                                                       TABLE OF CONTENTS


BACKROUND ............................................................................................................................... 1 

EXECUTIVE SUMMARY ............................................................................................................ 1 

OBJECTIVES AND SCOPE .......................................................................................................... 2 

CURRENT YEAR FINDINGS ...................................................................................................... 2 

MANAGEMENT RESPONSES .................................................................................................... 3 

   01 SAOP, CIO, OIT Director, and PAO Coordination ............................................................... 4 

   02 System of Records Notices and Routine Use Review ............................................................ 8 

   03 Privacy Impact Assessments ................................................................................................ 11 

PRIOR YEAR RECOMMENDATIONS ..................................................................................... 13 
                                           BACKROUND

Your Internal Controls (contractor), on behalf of the Federal Maritime Commission (FMC),
Office of Inspector General (OIG), conducted an independent evaluation of the quality of the
FMC privacy program and its compliance with applicable federal computer security laws and
regulations.

The Privacy Act of 1974 regulates the use of personal information by the United States
Government. Specifically it establishes rules that determine what information may be collected
and how information can be used in order to protect the personal privacy of U.S. citizens.

The Privacy Act applies to Federal Government Agencies and governs their use of a system of
records, which is defined as “any group of records under the control of any agency from which
information is retrieved by the name of an individual or by some identifying number, symbol, or
other identifying particular assigned to the individual.”

The following rules govern the use of a system of records:

   •   No Federal Government record keeping system may be kept secret.
   •   No agency may disclose personal information to third parties without the consent of the
       individual (with some exceptions).
   •   No agency may maintain files on how a citizen exercises their First Amendment rights.
   •   Federal personal information files are limited only to data that is relevant and necessary.
   •   Personal information may be able to be used for the purposes it was originally collected
       unless consent is received from the individual.
   •   Citizens must receive notice of any third party disclosures including with whom the
       information is shared, the type of information disclosed and the reasons for its disclosure.
   •   Citizens must have access to the files maintained about them by the Federal Government.
   •   Citizens must have the opportunity to correct or amend any inaccuracies or
       incompleteness in their files.

                                     EXECUTIVE SUMMARY

The OIG performed a Privacy and Data Protection review in accordance with privacy and data
protection related laws and guidance (e.g. Privacy Act of 1974, OMB memorandums,
Consolidated Appropriations Act of 2005 etc.). The Consolidated Appropriations Act of 2005
requires agencies to assign a Chief Privacy Officer (CPO) who is responsible for identifying and
safeguarding personally identifiable information (PII) and requires an independent third-party
review of agency use of PII and of its privacy and data protection policies and procedures at least
every two years.

The agency has improved its privacy program since our last review in 2010. For example, it
closed two of four deficiencies and has created policies and procedures to log, verify, and
reassess data extracts from databases holding sensitive information after 90 days. Also, the
agency removed the FMC-18 Privacy Impact Assessment (PIA) from its website because FMC-
18 is a component of another system (FMCDB) and did not require a PIA. We also identified

                                                1
areas where controls in select areas can be improved. These issues are discussed in this report as
noted below.

                                   OBJECTIVES AND SCOPE

The objective was to perform a privacy and data protection review. The contractor performed
the following:

   •   Conducted a review of the FMC’s privacy and data security policies, procedures and
       practices in accordance with regulations.
   •   Reviewed the agency’s technology, practices and procedures with regard to the
       collection, use, sharing, disclosure, transfer and storage of information in identifiable
       form.
   •   Reviewed the agency’s stated privacy and data protection procedures with regard to the
       collection, use, sharing, disclosure, transfer, and security of personal information in
       identifiable form relating to agency employees and the public.
   •   Performed a detailed analysis of the agency’s intranet, network, and website for privacy
       vulnerabilities (through vulnerability scans and review of source documents):
           o Assessed compliance with stated practices, procedures, and policy.
           o Assessed the risk of inadvertent release of information in an identifiable form
               from the website of the agency.
   •   Issued recommendations for improvements or enhancements to management of
       information in identifiable form, and the privacy and data protection procedures of the
       agency.
   •   Assessed the agency’s progress toward implementing corrective actions in prior audit
       reports.

                                  CURRENT YEAR FINDINGS

The agency has taken steps to enhance Privacy Act compliance efforts. All employees are
required to undergo annual privacy training to include safeguarding PII. The agency also
developed and implemented a number of formal policies and/or guidelines. For example, in June
of 2012, the agency issued a memorandum informing employees of their responsibilities for
safeguarding PII. Additionally, in March of 2011, the agency developed and implemented
policies regarding security of data on Personal Digital Assistants (PDA) and a Management
Directive addressing Cybersecurity awareness briefings for all new employees and annual
security awareness training for current employees. The Management Directive also addresses
specialized training for select IT personnel to ensure they are properly deploying security
awareness throughout the agency. The training focuses on security, which includes privacy over
the data residing on the FMC’s network. The agency also has well-established policies
documenting the various privacy act requirements, as well as procedures for complying with the
various privacy regulations and developing a PIA.




                                                2
While we identified program strengths, we also noted areas where improvement is possible.
The FMC’s SAOP, CIO, PAO and senior managers have responsibility for the agency’s systems
and compliance with Federal laws, regulations, and policies relating to information privacy.
Although there is interaction and communication between these individuals, communication and
coordination on information privacy, including review of systems and determinations for PIAs,
could be improved. Many subsidiary systems, including FMC-2, FMC-7, and FMC-24 have not
had an analysis performed to identify if a PIA is required for completion. We also identified
concerns with System of Records Notices (SORNs) postings and “routine uses” for systems.
Three existing PIAs are outdated and the agency has not informed the public about some systems
containing PII.

                                MANAGEMENT RESPONSES

We have included management’s response to the OIG recommendation(s) at the end of the
report. The OIG has closed two of four recommendations based on management’s response and
OIG follow up. The OIG was unable to assess corrective actions on the remaining two
recommendations without detailed follow up and/or additional fieldwork. The OIG will perform
all necessary verification processes in the FY 2013 FISMA cycle.




                                              3
          01 SAOP, CIO, OIT Director, and PAO Coordination
Condition:

There are 25 systems at the FMC that reside within different offices at the agency. The areas of
responsibility reside with the Privacy Act Officer, Senior Agency Official for Privacy (SAOP),
and the respective managers of systems of records. The Privacy Act Officer works toward the
implementation and enforcement of the Privacy Act by, for example, publishing systems of
records in the Federal Register, reviewing privacy policies and coordinating with the SAOP. The
SAOP ensures steps are taken to protect personal data from unauthorized use in consultation with
managers and the Privacy Act Officer. The SAOP also conducts periodic reviews of privacy
documentation. The managers of systems of records inform the Privacy Act Officer regarding the
existence of systems, monitor routine use, and assist in the safeguarding of privacy data. The list
of agency systems is noted below:

                                           Privacy Systems
              1.   GSS Network (electronic system)
                       a. FMC – 2 (Non-Attorney Practitioner File – paper and electronic system)
                       b. FMC – 24 (Informal Inquiries and Complaints Files – paper and
                            electronic system)
                       c. FMC – 32 (Regulated Persons Index – electronic system)
              2.   SERVCON (electronic system)
              3.   FMCDB (electronic system)
                       a. FMC-1 (paper system)
                       b. FMC-18 (paper system)
              4.   Systems residing on personal computers or storage media
                       a. FMC – 7 (Licensed Ocean Transportation Intermediaries Files – paper
                            and electronic system)
                       b. FMC – 22 (Records Tracking System – paper and electronic system)
                       c. FMC – 25 (Inspector General File – electronic system)
                       d. FMC – 31 (Debt Collection Files – paper and electronic system)
              5.   Office of Personnel Management (OPM) systems
                       a. FMC – 8 (Official Personnel Folder – electronic system)
                       b. FMC – 9 (Training Program Records – electronic system)
                       c. FMC – 14 (Medical Examination File – electronic system)
                       d. FMC – 16 (Classification Appeals File – electronic system)
                       e. FMC – 19 (Financial Disclosure Reports and Other Ethics Program
                            Records – electronic system)
                       f. FMC – 28 (Equal Employment Opportunity Complaints Files –
                            electronic system)
                       g. FMC – 29 (Employee Performance File System Records – electronic
                            system)
              6.   Paper based systems
                       a. FMC – 10 (Desk Audit File – paper based system)
                       b. FMC – 26 (Administrative Grievance File – paper based system)
                       c. FMC – 33 (Payroll/Personnel System – paper and electronic system)
                       d. FMC – 34 (Travel Charge Card Program – electronic system)
                       e. FMC – 35 (Transit Benefits File – electronic system)
                       f. FMC – 36 (SmartPay Purchase Charge Card Program – electronic
                            system)




                                                    4
Specifically, the following was noted:

            1. The SAOP, PAO, CIO, and OIT Director are recognized as needing better
               coordination of privacy related requirements to ensure compliance with Privacy
               regulations.

            2. All systems housing PII should be assessed to determine if a PIA is warranted.
               The PIA will help to ensure that controls are deployed on those systems that are
               commensurate with the PII residing on those systems. There are 22 systems where
               management has not determined whether a PIA is required and, if so, whether the
               PIA should be placed on the agency’s website. This deficiency focuses on the
               lack of PIA determination and not the controls over the PII residing on those
               systems. Some of the systems are managed by third parties and do not require a
               PIA. Some of the systems are also protected physically and have no data in
               electronic format. Thus, management must a determination whether a PIA is
               needed then takes steps to ensure that controls deployed throughout the various
               systems are strong enough to protect against PII exploitation.


Criteria:

   1. The National Institute of Standards and Technology (NIST) describes how an agency can
      identify Personally Identifiable Information (PII), enabling the agency to properly
      maintain an inventory of systems and what PII resides on each of those systems. The
      NIST guidance also provides guidance on how to perform a PIA. See NIST 800-122
      Guide to Protecting the Confidentiality of Personally Identifiable Information (PII),
      section 2.1:

“Organizations should use a variety of methods to identify all PII residing within their
organization or under the control of their organization through a third party (e.g., a system being
developed and tested by a contractor). Privacy threshold analyses (PTAs), also referred to as
initial privacy assessments (IPAs), are often used to identify PII. Some organizations require a
PTA to be completed before the development or acquisition of a new information system and
when a substantial change is made to an existing information system. PTAs are used to
determine if a system contains PII, whether a Privacy Impact Assessment is required, whether a
System of Records Notice (SORN) is required, and if any other privacy requirements apply to
the information system. PTAs should be submitted to an organization’s privacy office for review
and approval. PTAs are often comprised of simple questionnaires that are completed by the
system owner. PTAs are useful in initiating the communication and collaboration for each
system between the privacy officer, the information security officer, and the information officer.
Other examples of methods to identify PII include reviewing system documentation, conducting
interviews, conducting data calls, or checking with system owners.”




                                                 5
   2. NIST also describes the various elements making up PII. The elements below shall be
      considered when assessing the PII in systems maintained by the FMC, as noted in NIST
      800-122 section 2.1:

“This publication uses the definition of PII from OMB Memorandum 07-16, which is
information which can be used to distinguish or trace an individual's identity, such as their name,
social security number, biometric records, etc., alone, or when combined with other personal or
identifying information which is linked or linkable to a specific individual, such as date and
place of birth, mother’s maiden name, etc. To distinguish an individual is to identify an
individual.”

   •   Name, such as full name, maiden name, mother’s maiden name, or alias;
   •   Personal identification number, such as SSN, passport number, driver’s license number,
       taxpayer identification number, patient identification number, and financial account or
       credit card number;
   •   Address information, such as street address or email address;
   •   Asset information, such as Internet Protocol (IP) or Media Access Control (MAC)
       address or other host-specific persistent static identifier that consistently links to a
       particular person or small, well-defined group of people;
   •   Telephone numbers, including mobile, business, and personal numbers;
   •   Personal characteristics, including photographic image (especially of face or other
       distinguishing characteristic), x-rays, fingerprints, or other biometric image or template
       data (e.g., retina scans, voice signature, facial geometry);
   •   Information identifying personally owned property, such as vehicle registration or
       identification number, and title numbers and related information; and
   •   Information about an individual that is linked or linkable to one of the above (e.g., date of
       birth, place of birth, race, religion, weight, activities, or employment, medical, education,
       or financial information).

   3. The OMB has specific requirements regarding when and how a PIA should be conducted.
      This criteria states the instances when a PIA shall be performed as noted by OMB
      Memorandum 03-22 section II.B.2:

The E-Government Act of 2002 requires agencies to conduct a PIA. In general, PIAs are
required to be performed and updated as necessary where a system change creates new privacy
risks. For example:

   •   Conversions - when converting paper-based records to electronic systems;
   •   Anonymous to Non-Anonymous - when functions applied to an existing information
       collection change anonymous information into information in identifiable form;
   •   Significant System Management Changes - when new uses of an existing IT system,
       including application of new technologies, significantly change how information in
       identifiable form is managed in the system;
   •   Significant Merging - when agencies adopt or alter business processes so that government
       databases holding information in identifiable form are merged, centralized, matched with
       other databases or otherwise significantly manipulated;

                                                6
   •     New Public Access - when user-authenticating technology (e.g., password, digital
         certificate, biometric) is newly applied to an electronic information system accessed by
         members of the public;
   •     Commercial Sources - when agencies systematically incorporate into existing
         information systems databases of information in identifiable form purchased or obtained
         from commercial or public sources. (Merely querying such a source on an ad hoc basis
         using existing technology does not trigger the PIA requirement);
   •     New Interagency Uses - when agencies work together on shared functions involving
         significant new uses or exchanges of information in identifiable form, such as the cross-
         cutting E-Government initiatives; in such cases, the lead agency should prepare the PIA;
   •     Internal Flow or Collection - when alteration of a business process results in significant
         new uses or disclosures of information or incorporation into the system of additional
         items of information in identifiable form;
   •     Alteration in Character of Data - when new information in identifiable form added to a
         collection raises the risks to personal privacy (for example, the addition of health or
         financial information).

Cause:

There is a lack of communication and coordination between the SAOP, PAO, CIO, and OIT
Director, possibly leading to the absence of PIAs for some of the agency’s systems.

Risk:

Without periodic communication and coordination between the OIT, CIO, and PAO, there may
be PII vulnerable to exposure.

Recommendation(s):

   1. The system owners/managers, CIO, OIT Director, SAOP, and PAO should hold annual
      meetings to discuss the various requirements for all FMC systems to determine the
      security requirements of protecting the PII residing within those systems. Those meetings
      should discuss the following:

   •     Complete inventory of systems and the type of data residing on those systems.
   •     The safeguarding of data on those systems.
   •     The management of the systems. For example, are the systems managed by a third party
         or managed in-house by the FMC?
   •     Electronic versus paper-based systems.
   •     The types of controls deployed and whether or not this is commensurate with the data
         residing on the systems.
   •     PIAs for each system.
   •     SORNs and routing uses for each system.

   2. The system owners/managers, and as appropriate, system analyst or developer, should
      prepare privacy threshold analyses (PTAs) or initial privacy assessments (IPAs) to

                                                 7
         identify PII in existing or proposed agency systems. Based on completed PTAs/IPAs, the
         SAOP and CIO should work with the PAO to determine if PIAs are needed for those
         systems that have not had a PIA completed. Furthermore, the Privacy/Freedom of
         Information Act (FOIA) Officer should ensure that completed PIAs transmitted to
         him/her from the SAOP and CIO is posted to the Commission’s Internet website as
         appropriate.



           02 System of Records Notices and Routine Use Review
The Privacy Act of 1974 places restrictions on the ability of Federal agencies to share a system
of records with third parties, including other agencies. However, the Privacy Act does recognize
the need of the government to share records in order to improve security, maintain accuracy and
consolidate resources. This is often accomplished through matching programs which allow
certain data elements in one system of records to be searched against records in another system
in order to find any data matches. Such matches would link together the information from both
systems.

The Privacy Act contains a “routine use” exception which allows the disclosure of information
without the notice or consent of the individual. Routine use is defined as “the use of such record
for a purpose which is compatible with the purpose for which it was collected.”

“A System of Records is a group of any records under the control of an agency from which
information is retrieved by the name of the individual or by some identifying number, symbol or
other identifying particular assigned to the individual."

A System of Records Notice (SORN) informs the public of the existence of a system of records
and describes the type of information that an agency will be collecting, who will be collecting
the information, how it will be safeguarded, the purpose for collecting such information, etc. It is
an advanced notice to the public that must be given before an agency begins to collect, is given
access to or can retrieve personal information for a new system of records and must be published
in the Federal Register. As long as the SORN contains a listing of the routine uses of the
information, an agency is considered compliant with the Privacy Act.

The following system of record notices has been published in the Federal Register:

   1.    FMC – 1 (Personnel Security File – paper based system)
   2.    FMC – 2 (Non-Attorney Practitioner File – paper and electronic system)
   3.    FMC – 7 (Licensed Ocean Transportation Intermediaries Files – paper and electronic system)
   4.    FMC – 8 (Official Personnel Folder – electronic system)
   5.    FMC – 9 (Training Program Records – electronic system)
   6.    FMC – 10 (Desk Audit File – paper based system)
   7.    FMC – 14 (Medical Examination File – electronic system)
   8.    FMC – 16 (Classification Appeals File – electronic system)
   9.    FMC – 18 (Travel Orders / Vouchers File – paper based system)
   10.   FMC – 19 (Financial Disclosure Reports and Other Ethics Program Records – electronic system)
   11.   FMC – 22 (Records Tracking System – paper and electronic system)

                                                       8
   12.   FMC – 24 (Informal Inquiries and Complaints Files – paper and electronic system)
   13.   FMC – 25 (Inspector General File – electronic system)
   14.   FMC – 26 (Administrative Grievance File – paper based system)
   15.   FMC – 28 (Equal Employment Opportunity Complaints Files – electronic system)
   16.   FMC – 29 (Employee Performance File System Records – electronic system)
   17.   FMC – 31 (Debt Collection Files – paper and electronic system)
   18.   FMC – 32 (Regulated Persons Index – electronic system)
   19.   FMC – 33 (Payroll/Personnel System – paper and electronic system)
   20.   FMC – 34 (Travel Charge Card Program – electronic system)
   21.   FMC – 35 (Transit Benefits File – electronic system)
   22.   FMC – 36 (SmartPay Purchase Charge Card Program – electronic system)



Agencies are also required to periodically review their systems and ensure the SORN listing
maintained on the agency website is current. Agencies are also required to identify those
systems without a SORN and assess if there are PII records within those systems that should
have been communicated to the public via a SORN.

Condition:

   3. “Routine Uses” are not described for the IT systems:

   •     GSS Network
   •     SERVCON
   •     FMCDB

   4. Currently, there are 3 systems without a published SORN, even though it is a requirement
      that these systems should have an associated SORN that is published, thereby
      communicating to the public at large, regarding the data collected.

   •     GSS network
   •     SERVCON
   •     FMCDB

Criteria:

The OMB provides guidance regarding publishing of system records to ensure the public’s trust,
as stated in OMB M-99-05, Instructions on complying with President's Memorandum of May
14, 1998, "Privacy and Personal Information in Federal Records", section 4:

“In passing the Privacy Act, the Congress made a strong policy statement that in order to ensure
fairness, there shall be no record keeping systems, the very existence of which is secret.
Therefore, each agency shall review its operations to identify any de facto systems of records for
which no system of records notice has been published. If the agency identifies any such
unpublished systems of records, then the agency should publish a system of records notice for
the system promptly. Agencies shall implement appropriate measures (e.g., training) to ensure
that system of records are not inadvertently established, but instead are established in accordance
with the notice and other requirements of the Privacy Act.”

                                                       9
   1. Lastly, the OMB provides guidance on the periodic reviews of systems to ensure that
      unpublished records are complete and accurate, as stated in OMB M-99-05, attachment
      B:

“The Privacy Act of 1974 (5 U.S.C. § 552a, the Act) requires agencies to inform the public of the
existence of systems of records containing personal information, to give individuals access to
records about themselves in a system of records, and to manage those records in a way to ensure
fairness to individuals in agency programs.

For the Privacy Act to work effectively, it is imperative that each agency properly maintain its
systems of records and ensure that the public is adequately informed about the systems of
records the agency maintains and the uses that are being made of the records in those systems.
Therefore, agencies must periodically review their systems of records and the published notices
that describe them to ensure that they are accurate and complete. OMB Circular A-130,
"Management of Federal Information Resources," (61 Fed. Reg. 6428, Feb. 20, 1996) requires
agencies to conduct periodic reviews, in accordance with the schedule in Appendix I of the
Circular.”

   2. Each agency shall conduct a thorough review of its systems of records, system of records
      notices, and routine uses in accordance with the criteria and guidance below, as described
      by OMB M-99-05, section 2:

“Non-statutory disclosures created by administrative mechanisms should only be made when
appropriate. Therefore, each agency shall review its "routine uses" to identify any routine uses
that are no longer justified, or which are no longer compatible with the purpose for which the
information was collected. The Privacy Act requires agencies to include in their systems of
records notices a description of the routine uses for which information in a system of records
may be disclosed. 5 U.S.C. § 552a(e)(4)(D).”

Cause:

OIT was not fully aware of its requirements and responsibilities with regard to SORNs and
Routine Use review.

Risk:

Currently, the public is being misinformed regarding the listing of systems on the FMC website
because the system listing is incomplete. The FMC is responsible to ensure that systems have
published SORNs so that the public may be adequately informed of the systems that are in the
agency’s inventory and the PII contained within those systems. Without knowing if there are any
unpublished systems, the public at large will be misinformed with regard to the complete listing
of systems presented by the FMC. Also, documenting the “Routine Uses” enables IT to
adequately protect the PII residing on systems. Without a full understanding of “Routine Uses,”
the data may not be adequately protected.




                                               10
Recommendation(s):

   3. The OIT should review all routine uses for the GSS Network, SERVCON, and the
      FMCDB. If any of those routine uses are no longer appropriate, the OIT should work
      with the PAO to delete those routine uses from the SORN and update accordingly on the
      agency’s website.

   4. As the system manager/owner, the OIT, and as appropriate, system analyst or developer,
      should prepare privacy threshold analyses (PTAs) and/or PIAs for the GSS Network,
      SERVCON, and FMCDB to determine if any of these systems contain records of
      individuals covered by the Privacy Act (i.e., contain PII). For each of these systems
      where PII is identified and after SAOP/CIO review, the OIT should prepare for
      publication, appropriate SORNs.



                          03 Privacy Impact Assessments
A Privacy Impact Assessment (PIA) is an analysis of how information is handled: (i) to ensure
handling conforms to applicable legal, regulatory, and policy requirements regarding privacy, (ii)
to determine the risks and effects of collecting, maintaining and disseminating information in
identifiable form in an electronic information system, and (iii) to examine and evaluate
protections and alternative processes for handling information to mitigate potential privacy risks.

Condition:

   5. PIAs are required to be updated every 3 years (or earlier if the system had a significant
      change). PIAs are also required for new systems. A PIA has not been performed on one
      system and the PIA is outdated for two additional systems. See below for details:

   •   GSS Network – PIA last completed in 2008.
   •   SERVCON – PIA last completed in 2008.
   •   FMCDB – no PIA completed.

Criteria:

   1. The OMB has specific requirements regarding when and how a PIA should be conducted.
      This criteria states the instances when a PIA shall be performed as noted by OMB
      Memorandum 03-22 section II.B.2:

The E-Government Act of 2002 requires agencies to conduct a PIA. In general, PIAs are
required to be performed and updated as necessary where a system change creates new privacy
risks. For example:

   •   Conversions - when converting paper-based records to electronic systems;



                                                11
   •     Anonymous to Non-Anonymous - when functions applied to an existing information
         collection change anonymous information into information in identifiable form;
   •     Significant System Management Changes - when new uses of an existing IT system,
         including application of new technologies, significantly change how information in
         identifiable form is managed in the system;
   •     Significant Merging - when agencies adopt or alter business processes so that government
         databases holding information in identifiable form are merged, centralized, matched with
         other databases or otherwise significantly manipulated;
   •     New Public Access - when user-authenticating technology (e.g., password, digital
         certificate, biometric) is newly applied to an electronic information system accessed by
         members of the public;
   •     Commercial Sources - when agencies systematically incorporate into existing
         information systems databases of information in identifiable form purchased or obtained
         from commercial or public sources. (Merely querying such a source on an ad hoc basis
         using existing technology does not trigger the PIA requirement);
   •     New Interagency Uses - when agencies work together on shared functions involving
         significant new uses or exchanges of information in identifiable form, such as the cross-
         cutting E-Government initiatives; in such cases, the lead agency should prepare the PIA;
   •     Internal Flow or Collection - when alteration of a business process results in significant
         new uses or disclosures of information or incorporation into the system of additional
         items of information in identifiable form;
   •     Alteration in Character of Data - when new information in identifiable form added to a
         collection raises the risks to personal privacy (for example, the addition of health or
         financial information).

Cause:

The OIT has not made updating the two PIAs (GSS Network and SERVCON) and completing a
new PIA (FMCDB) a priority because of competing demands on resources for.

Risk:

With outdated PIAs for some of the OIT systems, FMC may not be deploying security controls
that are commensurate with the PII that resides on those systems.

Recommendation(s):

   5. The OIT should update the PIA for the GSS Network and SERVCON systems, and
      complete a new PIA for the FMCDB. The PIAs should be approved and reviewed by the
      SAOP.




                                                12
                                  Prior Year Recommendations
#                        POA&M                                  Report        Open / Closed
    Develop and implement policies and procedures to
    require privacy impact assessments (PIA) to be
    completed for each applicable information system.
1                                                            Report A11-01A      Open
    This was rolled into recommendation #7 on
    Report A12-02.


    Remove the FMC-18 (Form-18) PIA from the
    publicly accessible web that incorrectly states, “A
    risk assessment has been conducted and the
    appropriate controls have been implemented” as no
    authorization (formerly Certification & Accreditation
2                                                            Report A11-01A      Closed
    (C&A)) package was created for this system.

    This was closed prior to the FISMA 2011 testing.


    Create a planning document for multifactor
    authentication that correlates with the IT capital
    planning and investment control process. Utilize
    multifactor authentication for remote authentication
    for FMC systems to authenticate users’ identifies for
    Level 3 and 4 users in accordance with National
3   Institute of Standards and Technology (NIST) 800-        Report A11-01A      Open
    63.

    This was rolled into recommendation #6 - Report
    A12-02.


    Create policies and/or procedures to log, verify and
    reassess data extracts from database holding sensitive
    information after 90 days.
4                                                            Report A11-01A      Closed
    Policies are now in place that addresses this
    POA&M.




                                                    13
Form FMC-2      UNITED STATES GOVERNMENT                             FEDERAL MARITIME COMMISSION
 (Rev. 07-89)

                Memorandum


TO                  :   Inspector General                      DATE: November 29, 2012




FROM            :       Senior Agency Official for Privacy (SAOP)
                        Privacy Act Officer (PAO)




SUBJECT : Joint Response on Evaluation of the FMC’s FY 2012 Privacy and Data Protection


                 We have reviewed the recommendations in the subject Privacy and Data Protection
          Evaluation, and provide our responses below. Our responses assume adequate FY 2013 agency
          funding and resources.


          Finding #1: SAOP, CIO, OIT Director, and PAO Coordination

          Recommendation #1: The system owners/managers, CIO, OIT Director, SAOP, and PAO should
          hold annual meetings to discuss the various requirements for all FMC systems to determine the
          security requirements of protecting the PII residing within those systems. Those meetings should
          discuss the following:

                    a. Complete inventory of systems and the type of data residing on those systems.
                    b. The safeguarding of data on those systems.
                    c. The management of the systems. For example, are the systems managed by a third party
                       or managed in-house by the FMC?
                    d. Electronic versus paper-based systems.
                    e. The types of controls deployed and whether or not this is commensurate with the data
                       residing on the systems.
                    f. PIAs for each system.
                    g. SORNs and routing uses for each system.


                    Response: We concur in the recommendation. During FY 2013 the PAO (coordinating with
                    the SAOP, CIO, and the OIT Director) will kick off a project to conduct an agency-wide System
                    of Record (SOR) review on existing FMC systems and any proposed systems for compliance
   with the Privacy Act. System owners/managers will be engaged in developing and providing
   input for systems under their control/responsibility. Appropriate Federal Register Notices will
   be drafted and published. Thereafter, the system owners/managers, CIO, SAOP, OIT Director,
   and PAO will meet annually to discuss any changes to existing systems and anticipated new
   systems, and security requirements for protecting PII residing in agency systems.


Recommendation #2: The system owners/managers, and as appropriate, system analyst or
developer, should prepare privacy threshold analyses (PTAs) or initial privacy assessments (IPAs)
to identify PII in existing or proposed agency systems. Base on completed PTAs/IPAs, the SAOP
and CIO should work with the PAO to determine if PIAs are needed for those systems that have
not had a PIA completed. Furthermore, the Privacy/FOIA Act Officer should ensure that completed
PIAs transmitted to him/her from the SAOP and CIO, are posted to the Commission’s Internet
website as appropriate.

   Response: We concur in the recommendation. In connection with the agency-wide SORN
   review coordinated by the PAO noted in response to Recommendation #1, the SAOP/CIO will
   oversee completion of PTAs for agency systems and proposed systems. Based on completed
   PTAs, the SAOP and CIO will meet with the PAO to determine if PIAs are needed for agency
   systems. The Privacy/FOIA Act Officer will ensure that completed PIAs transmitted to him/her
   from the SAOP/CIO, are posted to the Commission’s Internet website as appropriate.


Finding #2: System of Records Notices and Routine Use Review

Recommendation #3: The OIT should review all routine uses for the GSS Network, SERVCON,
and the FMCDB. If any of those routine uses are no longer appropriate, the OIT should work with
the PAO to delete those routine uses from the SORN and update accordingly on the agency’s
website.

   Response: We concur in the recommendation. During FY 2013 an agency-wide project to
   review agency System of Records, including the GSS Network, SERVCON, and FMCDB will
   be conducted, with any necessary updates or publication of systems completed. (See
   Response to Recommendation Number #1 above).


Recommendation #4: As the system manager/owner, the OIT, and as appropriate, system
analyst or developer, should prepare privacy threshold analyses (PTAs) and/or PIAs for the GSS
Network, SERVCON, and FMCDB to determine if any of these systems contain records of
individuals covered by the Privacy Act (i.e., contain PII). For each of these systems where PII is
identified and after SAOP/CIO review, the OIT should prepare for publication, appropriate SORNs.

   Response: We concur in the recommendation and note that this recommendation will be
   handled as part of our response to Recommendation Numbers 1 and 2 above.

                                            2
Finding #3: Privacy Impact Assessments

Recommendation #5: The OIT should update the PIA for the GSS Network and SERVCON
systems, and complete a new PIA for the FMCDB. The PIAs should be approved and reviewed by
the SAOP/CIO.

      Response: We concur in the recommendation and note that this recommendation will be
      handled as part of our response to Recommendation Number 2 above.




________________________                         _____________________
/Austin L. Schmitt/                              /Karen V. Gregory/
Senior Agency Official for Privacy               Privacy Act Officer



cc:      Chief Information Officer
         Director, Office of Information Technology




                                             3
